<html>
<title> - NEW JOBS IN RECESSION AND RECOVERY: WHO ARE GETTING THEM AND WHO ARE NOT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  NEW JOBS IN RECESSION AND RECOVERY: 
                  WHO ARE GETTING THEM AND WHO ARE NOT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2011

                               __________

                           Serial No. 112-11

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                  U.S. GOVERNMENT PRINTING OFFICE
65-077 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TOM REED, New York                   LINDA T. SANCHEZ, California
TIM GRIFFIN, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
TOM MARINO, Pennsylvania
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel










                            C O N T E N T S

                              ----------                              

                             MARCH 10, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......    41
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    41

                               WITNESSES

Steven A. Camarota, Ph.D., Director of Research, Center for 
  Immigration Studies
  Oral Testimony.................................................    45
  Prepared Statement.............................................    48
Rakesh Kochhar, Ph.D., Associate Director for Research, Pew 
  Hispanic Center
  Oral Testimony.................................................    68
  Prepared Statement.............................................    70
Greg Serbon, State Director, Indiana Federation for Immigration 
  Reform and Enforcement
  Oral Testimony.................................................    87
  Prepared Statement.............................................    89
Heidi Shierholz, Ph.D., Economist, Economic Policy Institute
  Oral Testimony.................................................    93
  Prepared Statement.............................................    95

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     4
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     7
Prepared Statement of Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    43

                                APPENDIX
               Material Submitted for the Hearing Record

Press Release from the American Immigration Lawyers Association 
  (AILA).........................................................   112
Submission from the Center for the Study of Immigrant Integration 
  (CSII).........................................................   113
Letter from John L. Ghertner, MD.................................   122
Prepared Statement of the National Immigration Forum.............   123

 
 NEW JOBS IN RECESSION AND RECOVERY: WHO ARE GETTING THEM AND WHO ARE 
                                  NOT

                              ----------                              


                        THURSDAY, MARCH 10, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:13 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, Gohmert, Poe, 
Conyers, Lofgren, and Pierluisi.
    Staff present: (Majority) George Fishman, Subcommittee 
Chief Counsel; Marian White, Clerk; and Tom Jawetz, Minority 
Counsel.
    Mr. Gallegly. Six years ago, the Subcommittee held a 
hearing entitled ``New Jobs in Recession and Recovery: Who Are 
Getting Them and Who Are Not.'' At that time, Chairman 
Hostettler, the former Chairman of the Subcommittee, stated 
that, ``There is a sense among many Americans that the job 
opportunities they and their parents once enjoyed are no longer 
available to them and their children.''
    We will hear from the authors of two studies that have both 
concluded that all of the increase in employment in the United 
States over the last few years has been attributed to large 
increases in the number of employed immigrants, while the 
number of employed natives have actually declined.
    Six years later, we are again in a ``jobless'' recovery. 
And we again hear about the studies finding that all the net 
new jobs created are going to immigrant workers.
    Anyone who knows me knows I am a strong proponent of legal 
immigration. I am equally a strong opponent of illegal 
immigration. We are a Nation of immigrants. We are also a 
Nation of laws.
    Many of the studies we are going to hear about today do not 
make that distinction because the methodology and data to do so 
does not exist. But I ask the panelists, whenever possible, to 
make that distinction. It is really an important distinction 
between illegal and legal immigration.
    For instance, the Center for Immigration Studies has found 
that in 2008 and 2009, over 2 million new immigrants settled in 
the United States. At the same time, over 8 million jobs were 
lost. What the study doesn't note is that of the 2 million new 
immigrants, at least one-third illegally entered the country as 
illegal immigrants.
    The Center for Labor Market Studies at Northeastern 
University has found that between 2008 and 2010, the average 
number of employed persons in America decreased by over 6 
million, while over a million immigrants who arrived between 
2008 and 2010 were able to find jobs.
    The center has also found that the percentage of teenagers 
employed has plummeted so far so fast that last June less than 
30 percent were employed for the first time in the post World 
War II era. Many of those jobs that students used to work in--
in the fast food and landscaping industry, for example--are now 
held by illegal immigrants.
    We in Congress have an obligation to look after the well-
being of American workers. We have a special obligation to look 
after the most vulnerable American workers, those with lower 
levels of education who have borne the brunt of today's harsh 
job market.
    Therefore, we must ask what is the driving force here? Is 
there a connection between the loss of jobs by natives and the 
increasing number of employed immigrants, particularly illegal 
immigrants?
    At today's hearing, we will look at these issues. We will 
evaluate the reasons why the employment of American workers 
keeps decreasing in the midst of ever-increasing numbers of 
immigrant workers. We will examine the roles of the American 
immigration policy and immigration enforcement practices and 
the way they play in this outcome.
    We certainly don't want to be here 6 years from now and, 
again, asking why there are fewer and fewer jobs for American 
workers.
    That is our focus on today's hearing. And now I would yield 
to my good friend from California, the Ranking Member, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Before I make my opening statement, I wanted to make a 
comment about the so-called Northeastern report that has been 
discussed at several hearings and referenced again this 
morning.
    At the Subcommittee's first hearing, Mark Krikorian cited 
to a ``report'' several times in support of his arguments. And 
when I questioned him about it, he made clear that he had never 
seen the report and had not analyzed it. He said he had tried 
to get it, but he didn't think it was publicly available.
    Then at our last hearing, last week, Frank Morris also 
discussed this report. And I asked him if he had seen the 
report and if he would share it with us, and he said he would. 
And I am sure the Chairman recalls my dialogue with Mr. Morris, 
where he promised to send it to us.
    We have not received anything from Mr. Morris. But the 
majority has provided us with a sheet of paper with three 
tables that they received from a researcher at Northeastern. We 
understand this is all that the majority has. And clearly, this 
is not a report.
    So I asked my staff to contact the center to see what they 
would give us, and my staff spoke directly to Andrew Sum, the 
director of the center. According to Mr. Sum, there is no 
report at this time, and there never was a report.
    A report of some kind may be issued one day in the future. 
But until now, it has not been published, and it is not 
available for peer review or critique. Once it is published, of 
course, I expect many bright minds will review the data and the 
conclusions.
    Just to be sure, I had my staff send the page of tables we 
got from the majority to several economists. Each of those 
economists expressed serious concerns with the methodology 
apparently used by the author. I say ``apparently'' because the 
tables did not provide enough information for accurate 
analysis.
    In any event, the economists believe that Mr. Sum may have 
juxtaposed two different methodologies, leading to a distorted 
view of reality. Now, again, they can't say that this is what 
actually happened because neither the data, nor the analysis of 
the data, is being made publicly available. And without that, I 
can't see how we can justifiably rely on this.
    I raise this because I certainly do not accuse the 
witnesses or the majority with deception, but I think there was 
testimony provided to the Committee that was false. And I don't 
think it was knowingly false. I don't mean to say that. But I 
think it is important that we correct the record that there is 
no report that has been cited to us in two hearings and ask 
that this ``nonreport'' not be cited again in the future.
    And I would ask unanimous consent to add this statement, 
along with the analysis, to the record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you.
    Now, rather than actually attempting to fix our broken 
immigration system, we are now holding the fourth hearing in a 
row on the exact same topic. Each of these hearings seems to 
have the same goal--to convince us that immigrants, both legal 
and illegal, are bad for our economy.
    I say ``convince'' because the actual research in this area 
clearly shows that immigration is a net boon to our economy and 
to American workers. Let me say that again. Whatever you may 
hear from the other side of the aisle, independent economists 
agree that immigration has generally improved the wages and job 
opportunities of U.S. workers.
    There is some disagreement on the effect on a small segment 
of the lowest-skilled workers. But there is no disagreement on 
immigration's positive effect on the vast majority of U.S. 
workers. We can't just ignore that.
    Nor can we ignore what we have known for years, that 
immigrants can help our economy create huge numbers of jobs. It 
is widely known that they create jobs in the technology sector. 
I come from Silicon Valley, where more than half of the 
startups have at least one immigrant as a key founder.
    But this sort of entrepreneurship is not limited to high-
skilled immigrants. On Monday, the Wall Street Journal reported 
on a new report by the Ewing Marion Kauffman Foundation, which 
found that immigrants are creating new business ventures at 
unprecedented rates.
    Critical for today's hearing is the report's conclusion 
that `immigrants were more than twice as likely to start 
businesses each month in 2010 than were the native-born.''
    I would ask unanimous consent to enter the article and the 
report into the record, Mr. Chairman.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________

    Ms. Lofgren. Completely ignoring these facts, some have 
tried to paint a very different picture of immigrants in 
America. The last hearing was particularly contentious because 
it pitted immigrants, both lawful and unlawful, against 
American minorities. Rather than focusing on the real issues 
that are weighing down those communities, the hearing sought to 
simply blame immigrants.
    This week, we again seem to be pitting one group against 
another, placing the foreign-born against the native-born. By 
focusing on the foreign born writ large, my colleagues on the 
other side of the aisle are no longer confining their argument 
to the undocumented.
    When we discuss the foreign born in today's hearing, we 
must keep in mind that 44 percent of them are U.S. citizens. An 
additional third are lawful permanent residents and other legal 
immigrants, most of whom are on track to become U.S. citizens 
in the near future.
    By pitting the foreign born against the native born, we are 
largely pitting one group of citizens against another. That is 
a dangerous place to go.
    Today's hearing comes as our country is facing its greatest 
economic challenge since the Great Depression. People are right 
to be concerned about the pace of economic recovery and high 
unemployment rates, but we need to focus on facts and actual 
solutions, not sound bites.
    It is obvious to everyone that our immigration system is 
broken. And because the laws don't work, we are left with two 
entirely unsatisfactory immigration systems--the laws on the 
books and the reality on the ground.
    We can keeping ignoring that duality. My colleagues 
continue to argue that if we simply step up enforcement by 
stepping harder on the gas, we will somehow fix our broken 
system and cure the rest of society's problems. But let us be 
honest. You can't keep enforcing a broken system without doing 
real and lasting damage.
    This Subcommittee has already covered in great detail the 
incredible damage that we would inflict on the American economy 
if we simply removed 11 million consumers, homeowners, renters, 
employers, and entrepreneurs from this country. We agree that 
we need to end illegal immigration, but we disagree on how to 
accomplish that.
    My colleagues on the other side of the aisle think we can 
do that with increased enforcement and without otherwise 
reforming our immigration laws. I fundamentally disagree. I 
think the American people disagree. Enforcement without reform 
won't work, but it will do lasting damage to our economy.
    But let us put that aside for the moment. Illegal 
immigration is not the only problem in our current immigration 
system. Our current legal immigration system should be designed 
to respond to the needs of our economy and American workers, 
but that isn't the case. And enforcement alone will not fix 
that.
    Economic experts agree that immigration is a net positive 
for our country, but they also agree that it would be a much 
greater asset if it were designed to actually adjust to our 
economic needs. Right now, in spite of a massive 20 percent 
unemployment in construction, our legal system permits 
employers to bring in foreign construction workers on H-2B 
visas. That doesn't make any sense at all. And no amount of 
enforcement will fix this.
    Even if we can't agree on what to do with the undocumented, 
we should be able to agree that H-2B visas in the construction 
industry should not be available when we have 20 percent 
unemployment in that very industry.
    My colleagues have also pointed out in the last few 
hearings that if we simply reduce immigration, both legal and 
illegal, employers would be forced to pay higher wages to 
attract U.S. workers. But I am not sure how to reconcile that 
with repeated efforts on the other side of the aisle to lower 
wages for legal foreign workers, which makes it easier to 
undercut American workers.
    I must point out that it was the Bush administration that 
dramatically lowered wages and protections in the H-2A and H-2B 
programs, and it was the Obama administration that has been 
reversing those changes since taking office.
    In any event, everyone seems to agree that we need to 
protect American workers. So let us focus on changes that we 
should all be able to agree on.
    I introduced a bill in the last Congress that would have 
reformed the H-2B program to prevent employers from 
undercutting U.S. workers with H-2B workers. No one on the 
other side of the aisle joined me then, but perhaps we can 
agree to work on this bill again. I will be introducing a 
similar bill in this Congress.
    I look forward to hearing from the witnesses today, and I 
yield back the balance of my time.
    Mr. Gallegly. I thank the gentlelady.
    At this time, I would yield to the Chairman of the full 
Committee, my friend from Texas, Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman.
    There is no more important issue this Subcommittee can 
address than that of preserving jobs for American workers.
    The threshold question is how can we best align our 
immigration policy with the needs of American workers? How can 
we best meet the needs of those workers who are unemployed or 
underemployed? The answer is not to keep adding to the supply 
of low-skilled workers during a severe recession and its 
aftermath.
    The combined rate of joblessness and underemployment for 
native-born teens is over 40 percent. The rate for native 
workers without a high school degree over 32 percent. For 
native-born workers with no more than a high school degree over 
20 percent.
    How often do we read about the long-term unemployed or the 
working poor or single mothers with no mention of the serious 
impact of immigration on their employment, wages, and working 
conditions? We cannot ignore the adverse impact of mass low-
skilled immigration and the lack of enforcement of our 
immigration laws.
    At the Subcommittee's last hearing, we focused on the 
negative effects of cheap foreign labor on American minorities. 
Let me mention another group of Americans who are especially 
hard hit--teenagers. In June of 2000, a majority of the 
Nation's teens were employed. Ten years later, in June of 2010, 
less than 29 percent of the Nation's teens were employed.
    Mr. Chairman, we need to protect the jobs and wages of 
struggling Americans and legal immigrants. This includes 
teenagers new to the workforce and seasoned workers with years 
of valuable experience. We should design our immigration policy 
so that it enhances, rather than diminishes, opportunities for 
American workers.
    Mr. Chairman, I look forward to today's hearing and yield 
back.
    Mr. Gallegly. I thank the gentleman.
    The gentleman from Michigan, the Ranking Member, my good 
friend, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gallegly.
    I have a statement I will put in the record. But Chairman 
Smith raised to me the most significant question that has to 
guide all of us in all the Committees. What can we do to create 
jobs and keep wages up for all citizens in the country? And on 
that, Lamar, I couldn't agree with you more.
    The one thing we could do here is to get the Patent and 
Trademark Office rolling, where the innovation that is so 
remarkable in the American system, functioning so that it 
doesn't take years to get a patent. Because many of the smaller 
inventors end up going out of business while waiting to get the 
protection that they need.
    And so, the other body, I am told, has done that for the 
PTO, and I think we will be looking at it carefully since our 
Committee on Judiciary has worked together throughout the last 
three Congresses on putting out a bipartisan bill in that 
regard. So I join you with this.
    But as we have had three hearings on essentially the 
immigrant issue, and there is a certain nagging feeling that we 
are, either by implication or inadvertently, pitting immigrants 
against American workers, non-immigrants in this examination of 
how we fight joblessness. And what gets mixed up in it is the 
fact that we further subdivide the legal immigrants from those 
who are foreign born and are not legal.
    But the whole thing comes down as somehow the immigrants 
are responsible in some part for the high unemployment rate. 
And I hope we examine that as carefully and fairly as we can.
    Because even this morning, in another Committee, there is a 
hearing that is quite undisguised in its objective, going right 
on at the same time as this one, which claims to examine the 
radicalization of American Muslims, and that has created quite 
a ruckus. And it ends up with the worst of the things that I 
fear may be inadvertently going on with this fourth 
Subcommittee hearing on immigration and unemployment.
    Now we don't have direct jurisdiction over unemployment. 
And so, that is why all the Members will get shortly the bill 
that goes to the Education and Labor Committee as an answer to 
this problem more directly, and that is the revised Humphrey-
Hawkins Act that has been introduced that creates a way of 
triggering Government hiring when the unemployment hits roughly 
over 10 percent, training and hiring for direct employment. And 
I would bring that to the attention of my colleagues.
    With that, I will introduce the rest of my statement, and 
thank you, Chairman Gallegly.
    [The information referred to follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gallegly. Thank you, Mr. Conyers.
    This morning, we are fortunate to have four very 
distinguished members of the panel as our witnesses. And for 
the record, each of the witnesses' written statement will be 
entered into the record in its entirety.
    The four witnesses come from different parts of our 
society, and I am anxious to hear their testimony. The first is 
Dr. Steven Camarota. Dr. Camarota is director of research at 
the Center for Immigration Studies. He has been with the center 
since 1996, and his area of expertise is economics and 
demographics.
    Mr. Camarota has often testified before Congress and has 
written numerous published articles on the impact of 
immigration. He holds a Ph.D. from the University of Virginia 
in public policy analysis and a master's degree in political 
science from the University of Pennsylvania.
    Our second witness is Dr. Rakesh Kochhar. He is an 
associate director of research at the Pew Hispanic Center. Dr. 
Kochhar's work at the center focuses on the labor market 
outcomes of Hispanic workers. His study on the wealth of 
Hispanic households, ownership among minorities and immigrants, 
and the trends in the income and employment of Latino workers 
have received widespread coverage in the media.
    He received his bachelor's and master's degrees from the 
University of Delhi, India, and completed his doctoral studies 
in economics at Brown University.
    Our third witness is Greg Serbon. He is State director of 
the Indiana Federation of Immigration Reform and Enforcement. 
He has served as a union pipefitter since 1988. Prior, he was a 
Teamster. He was elected as an Indiana Democratic State 
delegate in 2010.
    And our fourth witness this morning is Dr. Heidi Shierholz. 
She is an economist at the Economic Policy Institute. In 2007, 
she previously worked as assistant professor of economics at 
the University of Toronto. Her areas of expertise include labor 
markets, economic inequality, and minimum wage. She earned her 
Ph.D. in economics and master's in economics from the 
University of Michigan.
    I think we have a very distinguished panel. I look forward 
to your testimony. We will start with you, Dr. Camarota.

  TESTIMONY OF STEVEN CAMAROTA, Ph.D., DIRECTOR OF RESEARCH, 
                 CENTER FOR IMMIGRATION STUDIES

    Mr. Camarota. I would like to thank the Committee for 
inviting me to talk about this extremely important topic.
    Obviously, we talk about this topic not to pit immigrants 
and natives against each other but to figure out what has been 
the impact of past immigration so that then we can see what we 
might want to do in the future. That is the only really tool we 
have.
    So when we try to think about who to allow in, what 
numbers, we have to look at what has been happening in the 
past. And then we also have to think about what has been 
happening if we want to decide what to do about the illegal 
immigrants here.
    Now I would like to start my comments by pointing out 
something everybody knows. Everyone agrees the last recession 
was extremely hard on American workers. The dearth of jobs has 
been enormous. Unemployment, nonwork have become extremely 
common in a way that they haven't for basically any other 
period in the post war era.
    But something was happening even before the current 
recession in the U.S. labor market that is very troubling. And 
my testimony will focus on what can only be described as an 
astonishing decline in work among native-born Americans over 
the last decade, not just the last few years.
    The bar chart to my right here shows this extraordinary 
development. The green bars in the figure show the native and 
the immigrant share of population growth among potential 
workers. That is the 18- to 65-year-old population. The figures 
show that about a third, or 34 percent, of the increase in the 
number of 18- to 65-year-olds in the United States was among 
immigrants.
    But what the bar chart on the right shows--or the figure, 
the bar on the right shows, the black bar, is that all of the 
growth in employment between 2000 and 2005 went to immigrants, 
even though they were only one-third of the increase in the 
number of potential workers. This is extraordinary.
    Looking at the numbers between 2000 and 2010, the number of 
immigrants holding a job increased by 4.5 million, while the 
number of natives holding a job actually declined by 1.1 
million. Even though the native-born population grew 
dramatically by nearly 14 million people, there were actually 
fewer of them working by the end of the decade.
    Now all of this means that the share of native-born people 
holding a job has declined significantly. Again, focusing on 
the working-age population, 18 to 65, or we could say the adult 
working-age population.
    What we see in the line charts here, and it is also Figure 
4 in my testimony, is that the share of native-born Americans 
18 to 65 holding a job declined dramatically throughout the 
decade. But it didn't happen for the immigrants in the same 
way. Their rate held roughly constant at around 70 percent, but 
the share of natives holding a job went from 76 percent to 69 
percent, really a dramatic change.
    Now the question is, is this just the recession? Is this 
just a statistical artifact of what has happened, say, since 
2007 when the economy went into recession? But we find that, 
no, that is not the case.
    When we look at the period between 2000 and 2007, the share 
of native-born Americans holding a job actually declined as 
well. Now that, since 2007 is a peak year, that shouldn't have 
happened if we compare it to a peak year of 2000. Now, among 
immigrants, the share holding a job actually went up, and I 
have the figures in my report.
    So, basically, we are at a situation where the share of 
working-age Americans who hold a job is now at historic lows, 
and the number not working is at historic highs.
    If we wish for the share of native-born Americans to get 
back to where it was in, say, 2000, we would need to add 12 
million new jobs for the native born. And the situation is 
actually much worse for those with relatively little education. 
And again, starkly, their labor force participation was 
actually lower in 2007 than it was in 2000, quite a bit lower, 
and it is in Figure 7 of my report.
    And we see that for Americans without a high school 
education. We see that for Americans who have only a high 
school education, and we see it for American-born teenagers.
    Now let me add something about the decline in teenagers' 
work. It is very troubling, and it is long term. And it is 
troubling because there is a lot of research showing you need 
to work as a teen often to develop the skills necessary to hold 
a job gainfully later in life.
    Now there are a number of studies that have found that 
immigration has reduced labor market opportunities for the 
native born. A 2006 study published by the National of Bureau 
of Economic Research by Borjas, Grogger, and Hagan, showed 
that--I should say Hanson--showed that immigration declined for 
about 20 to 60 percent--I am sorry, 25 percent of the work 
among less-educated Black men.
    A 2010 paper by Federal economist Christopher Smith 
suggested a third or half of the decline in teenage work is due 
to immigration. And another study by Andrew Sum, not the one 
that you were talking about before--this is a 2006 study, it is 
available at our Web site--also found, using multivariate 
analysis, immigration has a very significant negative impact on 
workers under the age particularly of 25 who don't have a lot 
of education.
    Now, given the abysmal labor market situation for American 
workers, it is very difficult to justify the continued high 
level of legal unskilled immigration and allowing all the 
illegal immigrants to stay in the country. Now, obviously, 
there are many things to consider. But given this situation and 
given a reasonable amount of evidence that immigration is 
hurting the least educated in particular, we might want to 
consider our current course of action.
    Thank you.
    [The prepared statement of Mr. Camarota follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Camarota.
    And I appreciate you recognizing the light. We really have 
a lot of folks who want to ask questions and a limited amount 
of time. And any additional statement you have will be made 
part of the record of the hearing. Dr. Kochhar?
    And please pronounce your name for me. I know I am not 
doing it right.

  TESTIMONY OF RAKESH KOCHHAR, Ph.D., ASSOCIATE DIRECTOR FOR 
                 RESEARCH, PEW HISPANIC CENTER

    Mr. Kochhar. No, you are doing great. The trouble is my 
name has two sounds that don't exist in English. So you are 
doing great.
    So, Chairman Gallegly, Ranking Member Lofgren, and Members 
of the Committee, thank you for the invitation to testify at 
this hearing.
    I am here today as the principal author of a report the Pew 
Hispanic Center released in October 2010, entitled ``After the 
Great Recession: Foreign Born Gain Jobs; Native Born Lose 
Jobs.'' My testimony summarizes and updates some of the key 
findings of our report. The Pew Hispanic Center, a project of 
the Pew Research Center, does not take positions on policy 
issues.
    The 2010 report focused on the period from the second 
quarter of 2008 to the second quarter of 2009, when most of the 
job losses during the great recession occurred, and the period 
from the second quarter of 2009 to the second quarter of 2010, 
the first year of recovery from the recession.
    We found that in the year following the official end of the 
recession, in June 2009, immigrant workers, who make up about 
16 percent of the labor force, gained 656,000 jobs while 
native-born workers lost 1.2 million. As a result, the 
unemployment rate for immigrant workers fell from 9.3 to 8.7 
percent, while for native-born workers, it rose from 9.2 to 9.7 
percent.
    Now, because 5 months have passed since the release of our 
report, I have taken this opportunity to update the results 
through the fourth quarter of 2010. The updated results show 
that the economic recovery is now offering more widespread job 
opportunities for both native-born and foreign-born workers.
    More specifically, in the 1-year period from the fourth 
quarter of 2009 to the fourth quarter of 2010, immigrants 
gained 657,000 jobs and native-born workers gained 685,000 
jobs. The unemployment rate dropped for both groups during this 
period. For immigrants, it fell from 10.1 to 9.9 percent, and 
for the native born, it decreased from 9.5 to 9.0 percent.
    The fourth quarter of 2010 is the first period since the 
middle of 2008 that native-born workers have experienced 
positive jobs growth. For immigrants, the fourth quarter of 
2010 marks the third successive period of jobs growth. Thus, 
the economic recovery now appears to be benefiting all workers, 
although the gains to native born have been a bit later in 
coming.
    But the jobs recovery has been far from complete for either 
group of workers. From the beginning of the recession in the 
fourth quarter of 2007 to the fourth quarter of 2010, native-
born workers have lost 6.1 million jobs, and foreign-born 
workers lost 262,000 jobs. The unemployment rate for the native 
born is up from 4.6 to 9 percent, and for immigrants, it is up 
from 4.5 to 9.9 percent.
    The reasons that the initial stage of the recovery has 
proceeded differently for native-born and foreign-born workers 
are not entirely clear. I will summarize some possible reasons 
and expand on each later in response to questions that you may 
have.
    One factor might be greater flexibility on the part of 
immigrants. Research by others suggests that immigrants are 
more mobile than native-born workers, moving more fluidly 
across regions, industries, and occupations.
    But the flip side of flexibility can be jobs instability 
and a loss in earnings. And we have observed some of that 
happening.
    Another reason might be that we are simply observing the 
greater volatility that typifies the employment patterns of 
immigrants. That means they are subject to greater extremes, 
both good and bad, registering sharper losses in the early 
stages of recessions but rebounding quicker in the recovery.
    The downward trajectory of job losses during this recession 
was steeper for immigrants, and now they are seemingly on a 
steeper climb out of the recession.
    Demographic changes, both short term and long term, might 
also be a factor. The ebb and flow of immigration is sensitive 
to the business cycle, with economic expansions tending to 
boost inflows. A recent report from the Pew Hispanic Center 
found that the number of unauthorized immigrants in the United 
States fell during the recession, but that the decline seems to 
have stopped during the economic recovery.
    As economic volatility diminishes, longer-term demographic 
trends are more likely to reassert themselves in the jobs 
market. The immigrant share of the U.S. working-age population 
has been on the rise for several decades.
    Because the immigrant population has been growing faster 
than the native-born population, the number of immigrants in 
the labor force and the number employed have tended to rise 
faster than for the native born. The observed pattern during 
the current recovery is consistent with the long-run 
demographic trend.
    Thank you.
    [The prepared statement of Mr. Kochhar follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Dr. Kochhar.
    Mr. Serbon, or it ``Ser-bone''?
    Mr. Serbon. Serbon.
    Mr. Gallegly. Serbon. Thank you.
    Hit your button there. No, on the microphone, please. There 
we go.

 TESTIMONY OF GREG SERBON, STATE DIRECTOR, INDIANA FEDERATION 
             FOR IMMIGRATION REFORM AND ENFORCEMENT

    Mr. Serbon. There we go.
    Thank you, Congressman, for giving me the chance to speak 
on behalf of the working-class Americans.
    A lot has changed since the last time I spoke before some 
of you in 2007. In 2007, we had plenty of jobs, the housing 
market was booming, and it seemed Americans were happy and 
working for the most part. Fast forward to today with 
unemployment or underemployment numbering as high as 20 million 
Americans, and the immigration floodgates are still wide open.
    Being a union member and an immigration activist, I am in a 
unique position because I travel to many different job sites 
and have the opportunity to speak with coworkers about 
immigration, legal and illegal.
    We are creating a permanent underclass in our country 
driven by immigration and the people who are supposed to 
represent the American citizens first, in my opinion. How many 
poorly educated, or even highly educated, do we allow into our 
country while millions of our citizens languish on 
unemployment? I think it is 99 weeks at the present time. It 
could be more.
    While I was doing some research for this hearing, I 
discovered we have at least 29 visa programs we give non-
immigrants to come and work in America. At this point in time, 
40 percent of illegal immigration in our country occurs when 
these non-immigrant visa holders overstay their visas.
    The visa programs you created are too numerous and too 
fraud laden, yet this issue is not being addressed properly, in 
my opinion. We have IT workers out of work, yet we issue around 
85,000 I believe they are H-1B visas to these high-tech 
workers.
    The son of one of our members is an IT worker and couldn't 
find a job for a year. This person possesses an MBA and had 
plenty of experience. Nobody wanted to pay him what he was 
worth because they know that cheaper labor is a visa away.
    I have personally witnessed immigrants being put in 
dangerous situations at the work sites I have been on. I have 
watched as employers had immigrants use power tools--such as 
saws, chipping hammers--without any eye or face protection. One 
occasion, take notes, OSHA came out to the job site for an 
inspection, and most of the immigrants left until the 
inspection was completed.
    Now I had to stop and think. Why would they leave a job 
site when only a safety inspector was present? Was it because 
the employer didn't want to take a chance that they might 
perform a task unsafely or maybe without their required safety 
equipment, thereby causing a fine for the employer?
    On construction sites, where communication is critical and 
a safety issue, I have run into people on the job who couldn't 
speak a word of English. I worked at a factory in late fall of 
'99. The building had no heat, and the women that I saw working 
there were dressed in winter clothing.
    The only people in the factory that spoke English were the 
supervisors, and of the 30 or so workers, maybe one or two 
spoke some broken English. I had to find an interpreter while I 
am at work from time to time just to keep the workplace safe, 
and this is not the way it should be.
    It has become increasingly difficult to find a job, and 
there are many good people I have worked with over the years 
who have not worked for months. We need an immigration time-
out. The people calling for more immigration do not care one 
iota about the working person in this country.
    The founder of the AFL, Samuel Gompers, wrote a letter to 
Congress in 1924 concerning immigration. In that letter, Mr. 
Gompers stated, ``America must not be overwhelmed.'' As far as 
I can see, the employers want cheap and subservient labor, and 
it would be fair to say we are giving it to them.
    Now some of the job sites that I am on. They use the I-9 or 
the E-Verify programs to make sure their workers are legal 
citizens or are able to work in the country legally. And you 
will find that the amount of immigrants drops significantly on 
these job sites that use these two programs. So I am saying we 
need to make E-Verify mandatory for everybody.
    And also, I see a lot of numbers thrown out around here by 
economists, but they are all working. So it is hard to say when 
you are on the other end of the deal, ``Look at this number,'' 
while you have got someone that is maybe in their 98th week of 
unemployment? I mean, something is not jiving here, you know?
    Thank you.
    [The prepared statement of Mr. Serbon follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gallegly. Thank you, Mr. Serbon.
    Dr. Shierholz?

TESTIMONY OF HEIDI SHIERHOLZ, Ph.D., ECONOMIST, ECONOMIC POLICY 
                           INSTITUTE

    Ms. Shierholz. Good morning, Mr. Chairman, Ranking Member 
Lofgren, and distinguished Members of the Subcommittee.
    I appreciate the opportunity to appear before you today to 
share my views.
    As we all know, over the last 4 years, this country has 
faced and continues to face a labor market crisis like nothing 
we have seen since the Great Depression. In this environment, 
all demographic groups have seen substantial increases in their 
unemployment rate.
    The latest aggregated labor market data available from BLS 
came out last Friday. So we now have employment and 
unemployment numbers by nativity for last month. What the data 
show is that both immigrants and native-born workers saw their 
unemployment rates more than double since the start of 2007--or 
more than double, excuse me, between the start of 2007 and the 
end of 2009. And both have seen only modest improvement since 
then.
    Last month, the unemployment rate of immigrant workers was 
9.8 percent, up 5 percentage points from where it was 4 years 
ago. Native-born workers have fared just slightly better, with 
an unemployment rate of 9.5 percent, up 4.6 percentage points 
over the last 4 years.
    Okay. That is unemployment. But what about jobs? Using the 
same BLS data, we find, like Dr. Kochhar, that while immigrants 
and native-born workers have experienced somewhat different 
timing of employment changes brought on by the great recession, 
their broad experience of breath-taking job deficits has been 
remarkably similar.
    Last month, immigrants and natives earned roughly the same 
place, with immigrant employment 4.3 percent below where it was 
4 years ago, and native-born employment 4.4 percent below where 
it was 4 years ago. So that answers the larger question of how 
native-born and immigrant workers are doing relative to each 
other in this national calamity of the great recession and its 
aftermath.
    But I would also like to step back and answer the broader 
question of what is known in general about the effect of 
immigration on the labor market outcomes of native workers. 
While Mr. Camarota clearly documented the decline in native 
employment over the last 10 years and the increase in immigrant 
employment over the last 10 years, we, of course, know that two 
trends happening at the same time does not mean that one caused 
the other.
    So, first and foremost, I think it is important to point 
out that in the ongoing debate on immigration, there is broad 
agreement among academic economists who research this that in 
the long run, immigration has a small, but positive impact on 
the labor market outcomes of native workers.
    Let me say that again. There is broad agreement among 
researchers who study this that in the long run, immigration 
has a small positive effect on the labor market outcomes of 
native workers.
    The real debate is around whether, within that overall 
positive effect, certain groups are harmed, in particular 
native-born workers with low levels of education. Importantly, 
the most recent work on the effect of immigration on wages, 
which updates and refines some of the methodology that had 
found sizable negative effects of immigration on native workers 
with low levels of education, now finds extremely modest 
effects.
    One report I would like to highlight is a 2010 paper by 
Giovanni Peri that addresses an issue that is particularly 
important to keep in mind today. Peri finds, consistent with 
the literature, that in the long run, immigrants do not reduce 
native employment rates. But he finds that in the short run, 
immigration may slightly reduce native employment rates because 
the economy takes time to adjust.
    Importantly, this effect varies according to the broader 
economic environment. When the economy is strong and the labor 
market is adding jobs, new immigration creates enough jobs, 
even in the short run and even for less-educated workers, to 
cause no harm to the employment of native-born workers.
    But during downturns, things don't adjust as quickly. When 
the economy is weak, new immigration has small negative impacts 
on the employment of native-born workers in the short run.
    This finding underscores the fact that the U.S. could 
benefit enormously from an immigration system that is more 
responsive to economic conditions. In our current immigration 
system, legal immigrant flows are essentially unresponsive to 
the business cycle. In particular, Congress has set a yearly 
limit on the number of new immigrants who may enter the country 
legally in order to work.
    These limits don't fluctuate based on the state of the 
labor market. As Ms. Lofgren pointed out, in 2010, the 
unemployment rate in construction was 20 percent. But the 
Department of Labor, nevertheless, certified thousands of H-2B 
visas for construction workers.
    To remedy this logic-defying situation, an independent 
Federal agency could be established to evaluate U.S. labor 
markets and annually make recommendations to Congress on the 
levels of permanent and temporary immigrant labor. This would 
better allow the U.S. economy to respond to the needs of 
employers during expansions while avoiding the potential 
crowding out of native-born workers in the short run when the 
unemployment rate is high.
    Thank you.
    [The prepared statement of Ms. Shierholz follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you. Thank you very much Dr. Shierholz.
    Before I ask a couple of questions of the witnesses, I 
would just like to respond to a comment that my good friend Mr. 
Conyers, the Ranking Member and former Chairman of the full 
Committee, who has been my neighbor and a man, as I have said, 
I have great respect for. And that will not change.
    But one of the things that goes on around here is we do 
have differences of opinions from time to time, and I think 
that is healthy. I would just like to remind the Ranking Member 
that for the past 4 years when the minority was in the 
majority, you had a different approach to dealing with 
immigration. And while I disagree with it, I respected that 
right to disagree.
    And in 4 years, the issue of illegal immigration and 
immigration in general did not change any for the better. We 
have been here for 2 months, and we have taken a little 
different approach. I happen to believe that our approach will 
be more effective. Only time will tell.
    But give us a chance. We have only had 2 months, and I 
would really like to work with you.
    Having said that, now I would like to ask Mr. Serbon a 
question. You obviously have a different background, and you 
have been in the trenches. You work shoulder-to-shoulder with 
the people that have been dramatically affected with the 
unemployment across this country probably most of your life.
    And as a union worker, I don't know whether this is a fair 
question to ask you, but I am going to ask it anyway. Do you 
believe that the American unions, labor unions, have abandoned 
what I have always thought was their longstanding policy to 
oppose illegal immigration?
    Mr. Serbon. Well, they take a different view on certain 
issues about the immigration debate. I know that they are 
totally against the guest worker program, at least the 
construction workers are.
    You know, like I said, any company that uses the I-9 or E-
Verify, there is very few immigrants working in that field. And 
I don't know why. Maybe there is a lot of illegals in the 
construction, I am sure.
    But I have had a couple of unions reach out, and they said 
that they do support the--we got a bill, Senate bill 590 in 
Indiana, dealing with illegal immigration. And they do support 
it.
    They just don't, some of them don't come out and job on the 
bandwagon with me and get out there in the trenches and push 
the issue. So as far as the hierarchy, I don't know what they 
are thinking.
    Mr. Gallegly. Do you think the motivation could possibly be 
an increase in the brotherhood?
    Mr. Serbon. Somewhat, yes.
    Mr. Gallegly. Probably on a more important issue, there has 
been a lot of discussion, and during the debate, we continue to 
hear that illegals only take the jobs that American workers 
will not take. Do you believe that there are jobs out there 
that American workers have and would like to have today that 
are and have been taken by people that have no legal right to 
be in the United States?
    Mr. Serbon. Well, they have had numerous raids a few years 
back in food processing plants, like chicken and beef 
processing plants. And every time they did a raid and actually 
arrested the illegals that were working there, Americans filled 
the gap.
    And even there was an automotive plant that did I think it 
was either axles or transmissions in southern Indiana. And just 
the rumor that ICE was going to raid the plant sent hundreds of 
their workers scurrying from the shift they were working on, 
and the plant ended up hiring some American citizens.
    And they actually quoted in the newspaper that--they 
actually interviewed the citizens, and they said we have been 
trying to get into this plant for a couple of months now, and 
it was just full. And then after just the threat of ICE coming, 
they had positions opened up.
    So Americans will take these jobs. You may have a different 
outlook as far as picking crops, but we do have visa programs 
to address that issue.
    Mr. Gallegly. Dr. Camarota, could you take a shot at that 
same question?
    Mr. Camarota. It sort of builds on something Dr. Shierholz 
said. The idea that she advocated is that, look, even the 
unskilled immigrants and the unskilled natives do very 
different things.
    But as my other panelist pointed out, when we have had 
raids and the illegal immigrants were removed from the labor 
market, what do you know? Natives got a large fraction of the 
new jobs. Sometimes they had to pay more and treat workers 
better. This happened at plants for Swift and at another plant 
in Tar Heel, North Carolina. We have done some work on that.
    What seems to have happened or the argument goes like this. 
Well, there are fewer natives, say, in construction as a share 
of unskilled natives in construction and more and more 
immigrants. And this suggests to some people that, well, the 
natives move out of construction and do something that requires 
more skill.
    The argument would be more persuasive is at the same time, 
we haven't seen this dramatic decline in work. In other words, 
lots of natives used to work in construction. They may work 
less there. But they haven't gone over to other occupations. 
They just work a whole lot less.
    And this is a very long-term trend. As immigration has 
increased over the last three decades, the share of less-
educated teenagers--the share of teenagers, I should say, and 
less-educated adults working has just continually declined.
    So what may seem to be happening is it is not so much that 
they are moving and sort of just not competing with immigrants, 
those that are, are just dropping out of the labor market.
    Mr. Gallegly. Thank you very much.
    I would just like to express an observation I have made 
over the last few years. As a parent of four grown young adults 
and a grandparent, when my children were in high school and 
college they worked in the fast food business. They all worked 
in high school and college, flipping burgers. I know that many 
young people today are trying to get these jobs and are having 
a tough time.
    I have made a personal observation of several food chains 
in my area or fast food chains in my area, where I happen to 
know a large percentage of the workers are undocumented. I 
happen to know of at least one food chain where there is almost 
no undocumenteds and doing exactly the same work, flipping the 
same hamburgers and principally the same product. But the only 
difference is about $2 an hour in the beginning wage.
    At this time, I would yield to the Ranking Member, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    As I listened to everyone, I was reminded of the phrase, 
``There is lies, darned lies, and statistics.'' And here we are 
with a variety of statistics being cited to reach dramatically 
different conclusions.
    I am wondering, Dr. Shierholz, I mean, we have got whenever 
there is a chart, you know, must be true. But your testimony 
really somewhat puts a different analysis on this. Really, the 
assumption that is being made here is that it is sort of a one-
for-one simple math issue in terms of immigrants coming in.
    And I am wondering if you could explain why that simple 
math is not the case. I am thinking about, for example, migrant 
farm workers. I mean, we have done some analysis on that. We 
have not seen Americans willing to go out and become a migrant 
farm worker. I mean, very few.
    I think some of it is the conditions of the work. Some of 
it is the pay. But also it is being a migrant worker and having 
to live in dormitories away from your family, and we just 
haven't seen Americans sign up for that. And yet we know that 
for every field job, there is three upstream and downstream 
jobs in terms of marketing and the like that Americans are 
holding.
    And if you were to do the wages high enough to lure 
Americans into a barracks, you probably wouldn't be able to 
compete with farms across our border, in New Zealand or 
Australia or Mexico or the like.
    Can you explain why this one-for-one doesn't work?
    Ms. Shierholz. Yes. You know, as a labor market economist, 
I like this question because it lets me talk about something 
that I think is a big misperception when thinking about labor 
markets and immigration. I think there is this idea out there 
that immigrants are just working machines that are doing work 
that could have been done by someone else, period.
    And what that does is it misses this whole other side of 
the equation that workers, immigrant workers are also people. 
They spend their wages on goods and services. They are buying 
cars and groceries and paying rent. So that is paying the wages 
of other people and generating jobs.
    So, in an economy that has more people, be it immigrants or 
native-born workers, in an economy that has more people, we 
intuitively understand that that doesn't necessarily mean 
higher unemployment rates. It is just a bigger economy. We do 
not think that because New York has a bigger population than 
Denver that New York is going to have a higher unemployment 
rate than Denver. It is just a bigger economy.
    So immigrants--there are both sides of the equation. They 
just make the situation bigger.
    Ms. Lofgren. Let me ask you this. I think we don't really 
know, but there are people have estimated that there are 11 
million, in the neighborhood of 11 million individuals who are 
in the United States without the proper documentation. Some of 
them have been here for 20 years. Some of them came last year.
    I think some of my colleagues on the other side of the 
aisle have indicated that it would probably be impossible to 
round up 11 million people and deport them. But that by 
hammering down on enforcement that there would be sort of an 
attrition, that people would leave. Although there is no 
evidence that that is, in fact, happening.
    Can you describe, in your judgment as an academician and 
someone who studies this, what would happen if we actually did 
pull 11 million people out of the economy? If we pulled them 
out next month, go to wherever you were born, what would happen 
to the American economy?
    Ms. Shierholz. So, okay, I have to think about this. 
Obviously, if we all of a sudden rounded up 11 million people, 
there would be a national disaster that would cause--you know, 
that would cause a huge economic shock that would ripple around 
and cause dramatic job loss.
    So the transition would be very difficult, but let us 
ignore the transition and just say, all right, magically, we 
have 11 million fewer workers in this country. That would just 
reduce the labor market by 11 million workers. It wouldn't mean 
there would be 11 million job openings.
    You have just shrunk the whole pie. So you have lost 
workers, but you have also lost consumers. So in the same way 
adding immigrants just sort of absorbs new people and makes the 
economy bigger, subtracting them does the same thing.
    So you had a bigger place, and now it is 11 million 
smaller. But you didn't necessarily--you are not going to have 
a whole bunch more job openings. You are not going to 
necessarily reduce the unemployment rate by doing that.
    Ms. Lofgren. I thank you for that answer.
    I would just--this is a complicated question, and we all 
see it from our own life experiences. But I think when I think 
about foreign-born employers, I often think about Sergey Brin. 
And I am glad that Google is in Mountain View, instead of in 
Moscow, and it employs tens of thousands of my constituents. 
And I am glad that he did what he did.
    Thank you. I yield back.
    Mr. Gallegly. The gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here today.
    This is an intriguing area, and as Ms. Lofgren points out, 
statistics point to unusual things. Let me ask with regard to 
the statistics, Mr. Kochhar, that you have cited in your paper, 
``After the Great Recession,'' the employment of foreign-born 
Hispanics increased by 435,000 while employment of native-born 
Hispanics decreased by 43,000.
    You found that employment of foreign-born Blacks increased 
by 81,000 while employment of native-born Blacks decreased by 
142,000. You found that foreign-born Hispanics gained 98,000 
construction jobs while 133,000 native-born Hispanics lost 
construction jobs.
    What is your explanation for this anomaly? The foreign born 
gain jobs. The native born lose jobs.
    Mr. Kochhar. You are referring to the report I submitted?
    Mr. Gohmert. It was your paper ``After the Great 
Recession.''
    Mr. Kochhar. Right. So that was the period from the middle 
of '09 to the middle of 2010.
    Mr. Gohmert. Yes.
    Mr. Kochhar. The first year of the recovery where, in the 
aggregate, the native born still had a significant job loss, 
and the foreign born were starting to recover in terms of jobs. 
And so, what you describe by race and ethnicity, it just 
filtered down the pipeline.
    Mr. Gohmert. But do you have any explanation for that 
emergence----
    Mr. Kochhar. Your question is why one is gaining and the 
other isn't gaining?
    Mr. Gohmert. Yes.
    Mr. Kochhar. I alluded to some of those. Well, all of those 
reasons that I feel are relevant in my testimony having to do 
with greater flexibility on the part of migrant workers, the 
fact that we are catching them at a point of time of volatile 
economic trend, and we happen to be catching one on the up and 
the other, yes, on the up, but not quite across the line.
    And also the demographic trends. So those are some of the 
factors I refer to.
    Mr. Gohmert. Mr. Serbon, American labor unions, if you look 
over the entirety of the 20th century, had a history and policy 
of being opposed to illegal immigration because they were 
protecting or attempting to protect those American citizens who 
had jobs, and it seemed to make sense.
    Do you know why the American labor unions have abandoned 
that longstanding policy of opposition to illegal immigration 
and have now embraced illegal immigration as somehow being 
helpful to their union members?
    Mr. Serbon. Well, I really can't speak for the hierarchy of 
our unions. I know a majority of union members, I think it was 
58 percent in one poll I had read, want the enforcement aspect 
of our immigration laws enforced.
    Mr. Gohmert. But that is rank-and-file union members.
    Mr. Serbon. Right. Right.
    Mr. Gohmert. Yes. Do you have any polling of union leaders 
to see how much different they are than union members?
    Mr. Serbon. I have talked to some of the State leaders on 
some groups, some of our labor groups, and they do support the 
regular immigration aspect of our immigration policy.
    Mr. Gohmert. But the policies seem to embrace illegal 
immigration.
    Mr. Serbon. Some of the higher-ups embrace it. I----
    Mr. Gohmert. And that is why I am asking. Why do the 
higher-ups of unions differ from their membership?
    Mr. Serbon. I have no clue what they are thinking.
    Mr. Gohmert. Okay. But you do you think they are thinking 
something? [Laughter.]
    All right. I see my time has expired.
    Mr. Serbon. Yes, I think they are thinking about something. 
I don't know what it is.
    Mr. Gohmert. Well, that is why I am wondering if maybe they 
are more concerned about forsaking the interests of their 
current members in order to pursue or lure future members. But 
anyway, I am glad to know they are thinking something.
    I yield back my time.
    Mr. Gallegly. Thank you.
    The gentleman from Michigan, do you have some questions, 
Mr. Conyers?
    Very well. Mr. Conyers?
    Mr. Conyers. Thank you, Chairman.
    One of the things that we are trying to do to stem the 
illegal entries is take care of the border there, and we have 
what is known as the ``wall builders'' in the Congress. Just a 
build a wall high enough and put enough guards on it. Are you a 
wall builder?
    Mr. Serbon. Me?
    Mr. Conyers. You.
    Mr. Serbon. I support their cause, but I don't--my main 
issue is that you do the, like I said, E-Verify, I-9. Once they 
get past the border, they are home free. That is my opinion, 
and we need to do this for every employer.
    You eliminate the job magnet, you eliminate the illegals.
    Mr. Conyers. Yes, but you can't eliminate the job magnet if 
you have got in Detroit the unemployment rate is not 9 percent, 
but 38 percent. So we are trying to create a job magnet. So 
when we create one for inside the U.S., don't worry. There will 
be people trying to get here by any means necessary.
    Mr. Serbon. Oh, I understand. Just the Doctor here had 
pointed out that if you bring in more people, it will create 
jobs. You know, they start their own businesses.
    And in the construction field, before, I have been on 
projects where you get a multiple layer of employers, you will 
find that one employer, maybe he is an immigrant contractor. 
And what they do is they hire all their own people. So I have 
been on job sites where the whole crew was Romanian.
    We have American electricians everywhere. That is a high-
skilled job. They did a very good job. But what I am saying is 
if you are going to allow someone in here to create a job, 
immigrant wise, and then they hire all their own people from 
their own country, what does that do for the American people? 
Other than bag their groceries when they come to buy them.
    Mr. Conyers. Well, Congresswoman Lofgren has a bill in that 
wants to relate the unemployment rate in building to allowing 
people who do building to come in. It is a pretty simple thing, 
but it is not being done. It is being ignored. We almost--we 
will probably have to pass a law to get it done.
    How is the new president of AFL-CIO doing, in your 
judgment? Is he one of the ones up at the top that don't get 
it, or is he an improvement, in your view?
    Mr. Serbon. I think he needs some more enlightening on the 
issue. I can't speak for him. You know, maybe you should have 
another hearing and invite him.
    Mr. Conyers. Well, we may do that. But I was just reacting 
to your comment about the fact that some of the people at the 
top of collective bargaining in the country have different 
views from people in the middle and lower ranks of collective 
bargaining.
    Mr. Serbon. Well, if you are seeing like in my area where 
unemployment for tradesmen was 28 or 30 percent, and we are 
continuing to bring in immigrants, skilled or unskilled, and I 
really don't see the leaders of the AFL-CIO saying stop. I 
haven't heard it myself. Maybe you have. I think they need to 
maybe voice their opinions for the American workers more.
    Mr. Conyers. Well, I can help you because James Hoffa comes 
out of Detroit there at national headquarters, and we fly 
regularly on Delta. So if you don't mind, I will communicate 
our discussion to him for you.
    Mr. Serbon. Oh, sure. I would love to speak to him.
    Mr. Conyers. Okay. Well, I speak to him pretty regularly.
    Now the big discussion here among our distinguished panel 
is that there is a causal connection between immigration 
numbers and unemployment. And some say that there isn't any 
direct causal connection. What do you think about that, sir?
    Mr. Serbon. Well, I just look--you know, everyone does 
numbers here and----
    Mr. Conyers. Yes.
    Mr. Serbon.--I see if there is 20 million people unemployed 
and you are still bringing in 1 million, 1.5 million, 2 million 
a year, something has got to give. And I think if we just stop 
legal immigration for a couple of years and let the market sort 
itself out----
    Mr. Conyers. Stop it altogether, right.
    Mr. Serbon.--I think we would be in a far better position. 
I mean, at 99 weeks unemployment, like I said, when you are 
coming up to 98 weeks and you just can't leave your home, 
travel a couple hundred miles. Some tradesmen do. But if you 
are not skilled, to travel somewhere out of your comfort zone 
to go find another job.
    Mr. Conyers. Can I get an additional minute, Mr. Chairman?
    Mr. Gallegly. Without objection.
    Mr. Conyers. Thank you, sir.
    What about sending back all the illegals, period?
    Mr. Serbon. That would be pretty difficult.
    Mr. Conyers. What is it, about 11 million?
    Mr. Serbon. It would be very difficult to send them all 
back. But if you, like Ms. Lofgren stated before, immigration 
or enforcement through attrition, if you start enforcing 
certain laws and actually step it up, they will leave on their 
own.
    I mean, I just read that Mexico's unemployment rate is 4.9 
percent. So that is quite a bit less than ours.
    Mr. Conyers. Could I ask, Dr. Camarota, are you willing to 
agree that there may not be a direct causal connection between 
immigration rates and unemployment?
    Mr. Camarota. Well, I think that what the research suggests 
and both common sense is it is never one-for-one, an immigrant 
arrives, and an American loses his job. Certainly, I have never 
suggested that. That would just be simply silly, of course.
    But on the other hand, 45 percent of the maids in the 
United States and 35 percent of the construction laborers in 
the United States are foreign born now. In each case, about 
half is illegal. To suggest that that kind of massive increase 
in the supply of workers has no impact on those occupations is 
equally silly as a kind of one-for-one.
    Some occupations are largely unaffected. Only 5 percent of 
lawyers in the United States. So I don't think immigration has 
almost any effect in that occupational category.
    Mr. Conyers. Thank you.
    What about this business of people will take any job? 
Seasonal labor, that is almost all immigrant work. I mean, 
people just don't go for working in the field. Stoop labor 
isn't getting it. Besides, the pay is terrible, and the working 
conditions are onerous. And that is why immigrants do the work, 
get the work. That is the only jobs they can get.
    Mr. Camarota. Well, remember, and even if we focused on 
illegal immigrants, the Pew Hispanic Center estimates 5 
percent, a very small fraction of all illegal immigrants, work 
in agriculture. It is almost irrelevant to the illegal 
immigration debate.
    There is about three times or four times as many illegal 
immigrants in things like construction and food service and 
food preparation. And they are the jobs that are still 
overwhelmingly done by natives, where immigrants have made all 
these gains.
    So if you want to have a special program for agriculture, 
we could talk about that. I might be amenable. But again, it is 
a tiny fraction of the illegal workforce.
    Mr. Conyers. Thank you very much.
    Thanks, Chairman.
    Mr. Gallegly. Thank you, Mr. Conyers.
    I want to thank all the witnesses this morning. Thank you 
for your testimony and for answering the questions, and look 
forward to working with you as we continue our efforts dealing 
with this issue in the days and months to come.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so the answers can be made a 
part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And with that, again, I thank you for being here today. And 
with that, the hearing stands adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Press Release from the American Immigration Lawyers Association (AILA)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




   Submission from the Center for the Study of Immigrant Integration 
                                 (CSII)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                    Letter from John L. Ghertner, MD

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




          Prepared Statement of the National Immigration Forum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
